APPENDIX A
UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT

AUGUST TERM, 2019
(ARGUED: November 4, 2019
DECIDED: February 6, 2020)
No. 18-338
UNITED STATES OF AMERICA,
Appellee,
v.
ZIMMIAN TABB,
Defendant-Appellant.
Before:

SACK and HALL, Circuit Judges, and
RAKOFF, District Judge.1

At issue in this case is whether defendant‐appellant
Zimmian Tabb’s prior convictions for attempted assault in
the second degree under N.Y. Penal Law (“N.Y.P.L.”)
§ 120.05(2) and federal narcotics conspiracy under 21
U.S.C. § 846 constitute predicate offenses for purposes of
the career offender sentencing enhancement of the
United States Sentencing Guidelines § 4B1.1. The district
court (Hellerstein, J.) applied the enhancement because it
found that Tabb’s conviction under N.Y.P.L. § 120.05(2)
constituted a predicate “crime of violence” and that
Jed S. Rakoff, of the United States District Court for the Southern District of New York, sitting by designation.
1

(1a)

2a
Tabb’s conviction under 21 U.S.C. § 846 constituted a
predicate “controlled substance offense.” The Court
agrees with both findings. Accordingly, application of the
career offender sentencing enhancement was appropriate
and the judgment of the district court is AFFIRMED.
FOR APPELLEE: WON S. SHIN, Assistant United
States Attorney (Geoffrey S. Berman, United States Attorney for the Southern District of New York, David W.
Denton, Jr., Rebekah Donaleski, Assistant United States
Attorneys, on the brief), New York, NY
FOR DEFENDANT-APPELLANT: RICHARD E.
SIGNORELLI, Law Office of Richard E. Signorelli, New
York, NY
RAKOFF, District Judge:
Zimmian Tabb appeals from a judgment of conviction
entered on January 25, 2018 and a Sentencing Order entered on January 26, 2018 in the United States District
Court for the Southern District of New York (Hellerstein,
J.). Tabb contends that he was improperly classified as a
career offender based on his prior convictions for attempted assault in the second degree under N.Y. Penal
Law (“N.Y.P.L.”) § 120.05(2) and federal narcotics conspiracy under 21 U.S.C. § 846. Because we agree that both
crimes constitute predicate offenses for purposes of the
career offender sentencing enhancement of the United
States Sentencing Guidelines (“U.S.S.G.”) § 4B1.1, we affirm the judgment of the district court.
I.

Facts

On May 5, 2017, Tabb pled guilty to aiding and abetting the distribution of 3.75 grams of crack cocaine, in violation of 21 U.S.C. § 841(b)(1)(C) and 18 U.S.C. § 2. The
plea agreement did not stipulate whether Tabb’s prior

3a
convictions qualified him for the career offender enhancement of U.S.S.G. § 4B1.1. Under U.S.S.G. § 4B1.1, a defendant is a career offender if (1) he is over 18; (2) the present offense is a felony crime of violence or a controlled
substance offense; and (3) he “has at least two prior felony
convictions of either a crime of violence or a controlled
substance offense.” U.S.S.G. § 4B1.2 sets out the definitions of both a “crime of violence” and a “controlled substance offense.”
At sentencing, the district court concluded that Tabb
had two prior felony convictions for purposes of the sentencing enhancement. First, Tabb’s 2014 conviction for
conspiracy to distribute and possess with intent to distribute crack cocaine in violation of 21 U.S.C. § 846 constituted a predicate controlled substance offense. Second,
Tabb’s 2010 conviction for attempted assault in the second
degree in violation of N.Y. Penal Law (“N.Y.P.L.”)
§ 120.05(2) constituted a predicate crime of violence.
Based on these prior convictions, the district court
concluded that Tabb qualified for the career offender enhancement and calculated his Guidelines range to be 151
to 188 months’ imprisonment. Without the career offender enhancement, Tabb’s Guidelines range would have
been 33 to 41 months.2 Ultimately, the district court imposed a below-guidelines sentence of 120 months. Tabb
appeals the judgment and sentencing order on the ground
that he should not have been classified as a career offender. This Court reviews de novo a district court’s interpretation of the Guidelines. United States v. Matthews,
205 F.3d 544, 545 (2d Cir. 2000).

As this illustrates, the career offender enhancement often dwarfs
all other Guidelines calculations and recommends the imposition of
severe, even Draconian, penalties.
2

4a
II. Analysis
Tabb argues that he should not have been classified
as a career offender under U.S.S.G. § 4B1.1 because he
did not have two predicate convictions. First, he argues
that attempted assault in the second degree under N.Y.
Penal Law § 120.05(2) is not a predicate conviction because it is not crime of violence within the relevant provision of U.S.S.G. § 4B1.2 (known as the “Force Clause”).
Second, he argues that his narcotics conspiracy conviction
under 21 U.S.C. § 846 is not a predicate conviction because
it does not qualify as a controlled substance offense. Neither argument is persuasive.
A. Tabb’s Conviction for Attempted Assault in the
Second Degree (N.Y.P.L § 120.05(2))
Tabb first argues that attempted assault in the second degree under N.Y.P.L § 120.05(2) is not a crime of violence under the Force Clause of § 4B1.2. A person is
guilty of second-degree assault under N.Y.P.L.
§ 120.05(2) when, “[w]ith intent to cause physical injury to
another person, he causes such injury to such person or to
a third person by means of a deadly weapon or a dangerous instrument.” This qualifies as a “crime of violence” under the Force Clause (also sometimes referred to as the
“Elements Clause”) if it “has as an element the use, attempted use, or threatened use of physical force against
the person of another.” U.S.S.G. § 4B1.2.3

A crime can also qualify as a “crime of violence” if it meets the
sentencing guidelines’ “enumerated offenses clause,” or “is a murder,
voluntary manslaughter, kidnapping, aggravated assault, a forcible
sex offense, robbery, arson, extortion, or the use or unlawful possession of a firearm described in 26 U.S.C. § 5845(a) or explosive material
as defined in 18 U.S.C. § 841(c).” Because attempted assault in the
second degree under N.Y.P.L. §120.05(2) qualifies as a crime of violence under the Force Clause, we need not determine whether it
3

5a
U.S.S.G. § 4B1.2’s Force Clause is identical to language in two other statutes: the definition of “violent felony” under the Armed Career Criminal Act (“ACCA”),
and the definition of “crime of violence” under 18 U.S.C.
§ 16(a). “[T]he identical language of the elements clauses
of 18 U.S.C. § 16(a) and [ACCA] means that cases interpreting the clause in one statute are highly persuasive in
interpreting the other statute,” as well as in interpreting
U.S.S.G. § 4B1.2. Stuckey v. United States, 878 F.3d 62,
68 n.9 (2d Cir. 2017), cert. denied, 139 S. Ct. 161 (2018).
Thus, in evaluating Tabb’s claim, this Court is guided by
its ACCA and § 16(a) jurisprudence.
Tabb first argues that attempted assault in the second degree under N.Y. Penal Law § 120.05(2) cannot be a
crime of violence because the substantive crime of seconddegree assault is not itself a crime of violence. To determine whether a state crime falls under the Sentencing
Guidelines, the Second Circuit generally uses the “categorical approach” prescribed by the Supreme Court. Taylor v. United States, 495 U.S. 575, 600 (1990). Under this
abstract approach, a court considers the “generic, contemporary meaning” of the crime in the guidelines, id. at
598, and then determines whether the crime committed
by the defendant falls under this “generic offense.” The
Court “ignores the circumstances of the particular defendant’s crime and asks instead what is the minimum
criminal conduct necessary to sustain a conviction under
the relevant statute.” Singh v. Barr, 939 F.3d 457, 462 (2d
Cir. 2019) (internal quotation marks and citation omitted).
“[O]nly if the statute’s elements are the same as, or narrower than, those of the generic offense does the prior
conviction serve as a predicate offense for a sentencing
enhancement.” United States v. Castillo, 896 F.3d 141,
would also meet the enumerated offenses clause definition of a crime
of violence.

6a
149-50 (2d Cir. 2018) (internal quotation marks and citation omitted).
Tabb’s argument that N.Y.P.L. § 120.05(2) is not a
crime of violence under the categorical approach is severely undercut by this Court’s holdings from the ACCA
and § 16(a) contexts. In United States v. Walker, 442 F.3d
787 (2d Cir. 2006) (per curiam), this Court held that attempted assault in the second degree N.Y.P.L. § 120.05(2)
is “categorically” a violent felony under ACCA because
“[t]o (attempt to) cause physical injury by means of a
deadly weapon or dangerous instrument is necessarily to
(attempt to) use ‘physical force,’ on any reasonable interpretation of that term.” Id. at 788. More recently, in Singh
v. Barr, 939 F.3d 457 (2d Cir. 2019) (per curiam), the
Court reaffirmed Walker’s holding and held that the substantive crime of second-degree assault under N.Y.P.L.
§ 120.05(2) is also categorically a crime of violence under
§ 16(a)’s Force Clause. Thus, this Court has found that the
substantive crime of N.Y.P.L. § 120.05(2) categorically
“has as an element the use, attempted use or threatened
use of physical force against the person of another” under
both ACCA and § 16(a).
Tabb provides no reason why the result should be different under U.S.S.G. § 4B1.2. Indeed, Tabb largely relies
on cases from both the ACCA and § 16(a) context to argue
that second-degree assault under N.Y.P.L. § 120.05(2) is
not a crime of violence. For example, Tabb relies on an
earlier § 16(a) case, Chrzanoski v. Ashcroft, 327 F.3d 188
(2d Cir. 2003), to argue that second-degree assault does
not qualify as a crime of violence because it may be accomplished by indirect force. Singh, however, necessarily, and
explicitly, rejected this argument when it found that second-degree assault under N.Y.P.L. § 120.05(2) was a
crime of violence under § 16(a). 939 F.3d at 463 (“[I]ndirect methods of inflicting serious physical injury still meet
the physical force requirement of § 16(a).”). Moreover, the

7a
view of “force” set forth in Chrzanoski was subsequently
modified by our Court in light of the Supreme Court decision in United States v. Castleman, which held that physical force in the context of a misdemeanor crime of domestic violence “encompasses even its indirect application.”
Villanueva v. United States, 893 F.3d 123, 130 (2d Cir.
2018) (quoting Castleman, 572 U.S. 157, 170 (2014)); see
also United States v. Hill, 890 F.3d 51, 60 (2d Cir. 2018)
(recognizing the Chrzanoski court “did not have the benefit of the Supreme Court’s reasoning in Castleman”).
Tabb’s alternative Chrzanoski-based argument—
that second-degree assault under N.Y.P.L. § 120.05(2) is
not categorically a crime of violence because it can be committed by omission—is no more successful. In Singh, the
Court requested supplemental briefing on “whether
NYPL § 120.05(2) allows for the imposition of liability
based on a defendant’s omission to act.” Singh, 939 F.3d
at 463. Neither the parties nor the panel were able to find
a single example of such liability being imposed. Id. Indeed, the panel explained that “it is nearly impossible to
conceive of a scenario in which a person could knowingly
or intentionally injure, or attempt to injure, another person with a deadly weapon without engaging in at least
some affirmative, forceful conduct.” Id. at 463-64 (quoting
United States v. Ramos, 892 F.3d 599, 612 (3d Cir. 2018)).
Thus, notwithstanding Tabb’s objections, we find that the
substantive crime of second degree assault under
N.Y.P.L. § 120.05(2) “has as an element the use, attempted use or threatened use of physical force against
the person of another” and is categorically a crime of violence under U.S.S.G. § 4B1.2.
We next examine whether attempted second degree
assault under N.Y.P.L. § 120.05(2) may nonetheless not
categorically be a crime of violence. We reject this possibility. Walker, although an ACCA case, squarely held that
attempted second-degree assault under N.Y.P.L.

8a
§ 120.05(2) requires the attempted use of physical force
“on any reasonable interpretation of that term.” 442 F.3d
at 788. This essentially precludes finding that New York
attempted second-degree assault does not have “as an element the . . . attempted use . . . of physical force against
the person of another” under U.S.S.G. § 4B1.2.
Recognizing that application of Walker’s holding
would negate his argument, Tabb offers a number of reasons why it is not controlling here. None is persuasive.
Tabb first argues that Walker is not controlling because
the Walker Court did not discuss the statutory definition
of “dangerous instrument,” which can include substances
that can cause death or physical injury without the use of
any force. As discussed above, however, the Supreme
Court has rejected the notion that the use of poison or another indirect application of force does not involve the use
of physical force, see Castleman, 134 S. Ct. at 1414, and
the Second Circuit has recognized and adopted this holding in multiple statutory contexts. See Villanueva, 893
F.3d at 128-29 (ACCA); Hill, 890 F.3d at 59-60 (18 U.S.C.
§ 924(c)(3)(A)).
Tabb next argues that an intervening Supreme Court
case, Johnson v. United States, 559 U.S. 133 (2010), effectively abrogated Walker. In Johnson, the Supreme Court
clarified that “physical force” means “violent force—that
is, force capable of causing physical pain or injury to another person.” Id. at 140. However, Walker held that attempted assault in the second degree necessarily involves
an attempt to use such physical force “on any reasonable
interpretation of that term.” Walker, 442 F.3d at 788. For
this reason, this Court has already rejected, albeit in an
unpublished opinion, the notion that Johnson abrogated
Walker. See Brunstorff v. United States, 754 F. App’x 48,
50 (2d Cir.), cert. denied, 140 S. Ct. 254 (2019). We agree.

9a
Finally, Tabb argues that Walker is not controlling
because “attempt” under New York law is broader than
the generic “attempt” described in the guidelines. Thus,
Tabb argues, a defendant could be convicted of attempted
assault in the second degree in New York without ever
“attempt[ing]” to use physical force in the sense defined
in the sentencing guidelines.4
The elements of New York attempt, however, are no
broader than generic attempt. The Second Circuit has
found that generic attempt is “the presence of criminal intent and the completion of a substantial step toward committing the crime.” Sui v. INS, 250 F.3d 105, 115 (2d Cir.
2001). New York attempt requires intent to commit the
crime and an “action taken by an accused [] ‘so near [the
crime’s] accomplishment that in all reasonable probability
the crime itself would have been committed.’” United
States v. Pereira-Gomez, 903 F.3d 155, 166 (2d Cir. 2018)
(quoting People v. Mahboubian, 74 NY.2d 174, 196
(1989)). The Second Circuit has held that this latter element of New York attempt “categorically requires that a
person take a ‘substantial step’ toward the use of physical
force.” United States v. Thrower, 914 F.3d 770, 777 (2d
Cir. 2019) (per curiam).5 Thus, the elements of New York
attempt are the same as or narrower than generic attempt, and attempted assault in the second degree under
Although this argument is essentially a veiled request to overrule
Walker, we nonetheless address and thereby reaffirm Walker’s holding and clarify its scope.
4

Tabb’s citation to People v. Naradzay, 11 N.Y.3d 460 (2008), in
which an individual was convicted of attempted murder without ever
having been in the presence of his victims, does not change this outcome. Someone can take a “substantial step” towards using force
against a victim even if that victim is not physically present at that
moment, for example by “load[ing] a firearm and then start[ing] towards the person to be assailed.” People v. Sullivan, 173 N.Y. 122,
136 (1903).
5

10a
New York law categorically involves the “attempted use
… of physical force” under U.S.S.G. § 4B1.2.
For the foregoing reasons, we find that attempted assault in the second degree under N.Y.P.L. § 120.05(2) is
categorically a crime of violence under the Force Clause
of U.S.S.G. § 4B1.2. Tabb’s conviction under this statute
thus properly served as a predicate for his sentencing enhancement.
B. Tabb’s Conviction for Narcotics Conspiracy
Under 21 U.S.C. § 846
Tabb also argues that his conviction for conspiracy to
distribute and possess with intent to distribute crack cocaine in violation of 21 U.S.C. § 846 (“Section 846”) cannot
qualify as a predicate “controlled substance offense” under U.S.S.G. § 4B1.1. As defined in U.S.S.G. § 4B1.2, a
controlled substance offense is:
an offense under federal or state law, punishable by imprisonment for a term exceeding one
year, that prohibits the manufacture, import,
export, distribution, or dispensing of a controlled substance (or a counterfeit substance)
or the possession of a controlled substance (or
a counterfeit substance) with intent to manufacture, import, export, distribute, or dispense.
Application Note 1 of the commentary clarifies that
controlled substance offenses “include the offenses of aiding and abetting, conspiring, and attempting to commit
such offenses.” U.S.S.G. § 4B1.2 cmt. n.1. The plain text of
U.S.S.G. § 4B1.2 as interpreted by Application Note 1
thus appears to include narcotics conspiracies such as 21
U.S.C. § 846. Tabb nonetheless argues that narcotics conspiracy under Section 846 is not encompassed by this definition, and is thus not a proper predicate for a sentencing
enhancement.

11a
Tabb first argues that narcotics conspiracy under 21
U.S.C. § 846 is not a proper predicate conviction because
Application Note 1 conflicts with the Guidelines text by
improperly expanding it. See Stinson v. United States,
508 U.S. 36, 45 (1993) (holding that Guidelines commentary is valid and binding on the judiciary unless it is
“plainly erroneous or inconsistent with” the Guidelines
text). This argument, however, is foreclosed in this Circuit
by United States v. Jackson, 60 F.3d 128 (2d Cir. 1995). In
Jackson, this Court directly addressed and dismissed the
argument that “the Sentencing Commission exceeded its
statutory mandate . . . by including drug conspiracies as
controlled substance offenses.” Id. at 131.
Although Tabb attempts to argue that Jackson only
addressed the Sentencing Commission’s authority, not
Tabb’s specific argument that Application Note 1 improperly conflicts with the guideline text, this purported distinction is without substance. In our view, there is no way
to reconcile Jackson’s holding that the Commission had
the “authority to expand the definition of ‘controlled substance offense’ to include aiding and abetting, conspiring,
and attempting to commit such offenses” through Application Note 1, id. at 133, with Tabb’s proposed holding
that the Guideline text forbids expanding the definition of
a controlled substance offense to include conspiracies.
To be sure, Jackson only applies in the Second Circuit. Tabb correctly notes that the Sixth and D.C. Circuits
have recently agreed with Tabb’s argument that Application Note 1 conflicts with the text of U.S.S.G. § 4B1.2(b)
by including crimes that the Guideline text excludes. See
United States v. Havis, 927 F.3d 382, 385-87 (6th Cir.
2019) (en banc) (per curiam); United States v. Winstead,
890 F.3d 1082, 1090-92 (D.C. Cir. 2018); see also United
States v. Crum, 934 F.3d 963, 966 (9th Cir. 2019) (per curiam) (“If we were free to do so, we would follow the Sixth
and D.C. Circuits’ lead.”). But these decisions are of no

12a
moment here, because we, acting as a three judge panel,
are not at liberty to revisit Jackson. See Doscher v. Sea
Port Grp. Sec., LLC, 832 F.3d 372, 378 (2d Cir. 2016) (finding that this Court is “bound by a prior panel’s decision
until it is overruled either by this Court sitting en banc or
by the Supreme Court”). Accordingly, we find that Jackson precludes Tabb’s argument that Application Note 1 is
invalid.
Tabb next argues that even if Application Note 1 is
valid, the word “conspiracy” does not encompass his conviction for federal narcotics conspiracy under Section
846.6 Specifically, he argues that narcotics conspiracy under 21 U.S.C. § 846 is not a predicate “controlled substance offense” under U.S.S.G. § 4B1.1 because the term
conspiracy in Application Note 1 encompasses only “generic” conspiracy. To do so, Tabb relies on United States
v. Norman, 935 F.3d 232 (4th Cir. 2019), in which the
Fourth Circuit held that Application Note 1 incorporates
a generic definition of conspiracy, that generic conspiracy
requires an overt act, and that federal narcotics conspiracy under 21 U.S.C. § 846 is not a generic conspiracy because it does not require an overt act. Id. at 237-38.7
We respectfully disagree. The essence of a conspiracy
is an agreement by two or more persons to commit an
The Government argues that Jackson forecloses this argument
because it affirmed the application of a sentencing enhancement
based on a conviction for Section 846 conspiracy. In Jackson, however, the defendant “d[id] not challenge the application of the Sentencing Guidelines,” Jackson, 60 F.3d at 131, but instead focused on
whether Applied Note 1 was a proper exercise of the Sentencing
Commission’s authority. Thus, Jackson does not control the specific
question of whether the district court erred in finding that Application Note 1’s language includes Section 846 narcotics conspiracy.
6

Norman joined United States v. Martinez-Cruz, 836 F.3d 1305
(10th Cir. 2016), which reached the same conclusions with respect to
U.S.S.G. 2L1.2. Id. at 1310-14.
7

13a
unlawful act. See United States v. Praddy, 725 F.3d 147,
153 (2d Cir. 2013). Although conspiracy at common law often required that an overt act, however trivial, be taken in
furtherance of the conspiracy, Congress has chosen to
eliminate this requirement in the case of several federal
crimes, most notably narcotics conspiracy. United States
v. Shabani, 513 U.S. 10, 14-15 (1994).
The text and structure of Application Note 1 demonstrate that it was intended to include Section 846 narcotics
conspiracy. Application Note 1 clarifies that “controlled
substance offenses” include “the offense[] of . . . conspiring . . . to commit such offenses,” language that on its face
encompasses federal narcotics conspiracy. As the Ninth
Circuit recognized in relation to a similar Guideline provision, “To hold otherwise would be to conclude that the
Sentencing Commission intended to exclude federal drug
. . . conspiracy offenses when it used the word ‘conspiring’
to modify the phrase” controlled substance offenses.
United States v. Rivera-Constantino, 798 F.3d 900, 904
(9th Cir. 2015). Such a holding would also require finding
that term “conspiracy” includes Section 846 narcotics conspiracy in some parts of the guidelines, see, e.g., U.S.S.G.
§ 2D1.1; U.S.S.G. § 2X1.1, but not others. “A standard
principle of statutory construction provides that identical
words and phrases within the same statute should normally be given the same meaning.” Rivera-Constantino,
798 F.3d at 905 (quoting Powerex Corp. v. Reliant Energy
Servs., Inc., 551 U.S. 224, 232 (2007)).
Moreover, as this Court noted in Jackson, interpreting “controlled substance offense” conspiracies to include
Section 846 conspiracies harmonizes the Sentencing Commission’s intent with congressional intent. This Court upheld Application Note 1 in Jackson in part because Section 846 manifested congressional “intent that drug conspiracies and underlying offenses should not be treated
differently” by “impos[ing] the same penalty for a

14a
narcotics conspiracy conviction as for the substantive offense.” 60 F.3d at 133. Reading Application Note 1 as intended to exclude Section 846 conspiracy would place the
Sentencing Commission at odds with Congress itself by
attaching sentencing enhancements to substantive narcotics crimes but not to the very narcotics conspiracies
that Congress wanted treated the same.
To us, it is patently evident that Application Note 1
was intended to and does encompass Section 846 narcotics
conspiracy. Tabb’s conviction under this statute thus
properly served as a predicate for his sentencing enhancement.8
III. Conclusion
For the foregoing reasons, the district court correctly
concluded that Tabb’s convictions for attempted assault in
the second degree under N.Y.P.L. § 120.05(2) and federal
narcotics conspiracy under 21 U.S.C. § 846 constituted
predicate crimes for purposes of the career offender sentencing enhancement. The district court’s judgment and
sentence are AFFIRMED.

As a final argument, Tabb urges that because it is at least arguably ambiguous whether his prior offenses qualify as predicate offenses under U.S.S.G. § 4B1.1, the rule of lenity requires us to interpret the sentencing guidelines in his favor. The rule of lenity, however, is a tool of last resort “reserved for cases where, after seizing
every thing from which aid can be derived, the Court is left with an
ambiguous statute.’” DePierre v. United States, 564 U.S. 70, 88 (2011)
(quoting Smith v. United States, 508 U.S. 223, 239 (1993)). As described above, this Court’s prior precedent, along with traditional
rules of statutory interpretation, resolve any ambiguity in the sentencing guidelines decidedly against Tabb. Accordingly, the rule of
lenity has no application here. Id.
8

15a
APPENDIX B
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF NEW YORK

UNITED STATES OF AMERICA,
-againstZIMMIAN TABB,
Defendant.
SENTENCING ORDER
HOLDING DEFENDANT A
CAREER OFFENDER

16 Cr. 747 (AKH)
Date Filed: 1/26/18
ALVIN K. HELLERSTEIN, U.S.D.J.:
On November 9, 2016, Zimmian Tabb was charged in
a single-count indictment with possession with intent to
distribute cocaine base in violation of 21 U.S.C.
§ 841(b)(1)(C). This Court accepted Tabb’s guilty plea on
May 5, 2017, and on January 19, 2018, the Court sentenced
Tabb to 120 months’ imprisonment. That sentence was
based, in part, on a finding that Tabb’s prior conviction for
attempted assault under New York Penal Law § 120.05(2)
qualifies as a “crime of violence” under Section 4B1.2(a)
of the United States Sentencing Guidelines (“Guidelines”), and that his conviction for conspiracy to distribute
narcotics under 21 U.S.C. § 846 qualifies as a “controlled
substance offense” under Section 4B1.2(b) of the Guidelines, rendering him subject to the career offender

16a
sentencing enhancement. See U.S.S.G. § 4B1.1.1 The
Court now issues this Order to explain and supplement its
ruling.
Background

The 2016 Sentencing Guidelines Manual applies to
Tabb’s sentencing proceedings. Section 4B1.1(a) of the
Guidelines provides, in relevant part:
A defendant is a career offender if (1) the defendant was at least eighteen years old at the time the
defendant committed the instant offense of conviction; (2) the instant offense of conviction is a felony
that is either a crime of violence or a controlled
substance offense; and (3) the defendant has at
least two prior felony convictions of either a crime
of violence or a controlled substance offense.
U.S.S.G. § 4B1.1. The dispute in this case centers on the
third element—whether Tabb has two prior felony convictions that qualify as either a crime of violence or a
Whether the career offender enhancement applies to Tabb’s case
has a significant effect on the applicable guideline range. At sentencing, the Court found that without the career offender enhancement,
Tabb had a basic offense level of 14. See U.S.S.G. § 2D1.1. He was
then subject to a two-level enhancement for maintaining a premises
for the purposes of manufacturing or distributing a controlled substance, see U.S.S.G. § 2D1.1(b)(12), and a three-level decrease for
timely acceptance of responsibility and assisting authorities in the investigation, see U.S.S.G. § 3E1.1 (a)-(b). This would have placed Tabb
in Offense Level 13 with criminal history category VI, resulting in a
guideline range of 33–41 months. With the career offender enhancement. Tabb’s Offense Level was increased to 32. See U.S.S.G. § 4B1.1.
After a three-point reduction for acceptance of responsibility, the
Court concluded that Tabb had an Offense Level of 29 and a criminal
history category of VI, resulting in a guideline range of 151–180
months. The Court ultimately determined, based on all the circumstances, that a variance was proper in this case and sentenced Tabb
to 120 months’ incarceration.
1

17a
controlled substance offense. These terms are defined in
Section 4B1.2 of the Guidelines as follows:
(a) The term “crime of violence” means any offense
under federal or state law, punishable by imprisonment for a term exceeding one year, that—
(1) has as an element the use, attempted use, or
threatened use of physical force against the person of another, or
(2) is murder, voluntary manslaughter, kidnapping, aggravated assault, a forcible sex offense,
robbery, arson, extortion, or the use or unlawful
possession of a firearm described in 26 U.S.C. §
5845(a) or explosive material as defined in 18
U.S.C. § 841(c).
(b) The term “controlled substance offense” means
an offense under federal or state law, punishable
by imprisonment for a term exceeding one year,
that prohibits the manufacture, import, export,
distribution, or dispensing of a controlled substance (or a counterfeit substance) or the possession of a controlled substance (or a counterfeit substance) with intent to manufacture, import, export,
distribute, or dispense.
U.S.S.G. § 4B1.2(a)–(b). Section 4B1.2(a)(1) has come to
be known as the “elements” or “force clause.”2 Application
Note 1 to the Commentary for Section 4B1.2 provides that
“ ‘[c]rime of violence’ and ‘controlled substance offense’ include the offense of aiding and abetting, conspiring, and
attempting to commit such offenses.” U.S.S.G. § 4B1.2,
application note 1.
A prior version of Section 4B1.2(a)(2) also included what was commonly known as the “residual clause.” The Sentencing Commission
removed the residual clause in light of Johnson v. United States, 135
S. Ct. 2551 (2015).
2

18a
Discussion
Tabb argued strenuously at sentencing that the career
offender enhancement should not apply to his case. In
light of binding Second Circuit precedent, the Court concludes that both of his relevant convictions qualify under
Section 4B1.2 of the Guidelines, and Tabb is therefore
subject to the career offender sentencing enhancement.
A. Defendant’s Attempted Assault Conviction

Tabb first argues that his conviction for attempted assault under New York Penal Law § 120.05(2) does not
qualify as a “crime of violence” under Section 4B1.2(a)(l)
of the guidelines. Under the New York statute, “[a] person is guilty of assault in the second degree when … [w]ith
intent to cause physical injury to another person, he
causes such injury to such person or to a third person by
means of a deadly weapon or dangerous instrument.” N.Y.
Penal Law § 120.05(2). Tabb argues that under the “elements” or “force clause” of Section 4B1.2(a)(1), his conviction does not qualify as a “crime of violence” because it did
not necessarily require a showing of “strong physical
force,” as understood by the Supreme Court in Johnson
v. United States, 559 U.S. 133, 140 (2010). But the Second
Circuit has already rejected this basic contention in
United States v. Walker, 442 F.3d 787, 788 (2d Cir. 2006).
Calling this very argument “meritless,” the Court held
that “categorically, [the defendant’s] conviction involved
an attempt to cause physical injury by means of a deadly
weapon or dangerous instrument. To (attempt to) cause
physical injury by means of a deadly weapon or dangerous
instrument is necessarily to (attempt to) use ‘physical
force,’ on any reasonable interpretation of that term….”
Id.
Tabb’s attempts to avoid this result are not persuasive. Tabb primarily encourages the Court to follow the

19a
approach taken by the district court in Villanueva v.
United States, 191 F. Supp. 3d 178, 192 (D. Conn. 2016).
The Villanueva court held that a conviction under an
identical Connecticut statute “does not necessitate the use
of force in light of the definition of the term ‘dangerous
instrument,’ ” which “includes substances.” Id. The court
concluded that because one could use “emotional force to
compel another person to take a cyanide pill,” no showing
of physical force was required to sustain a conviction under the Connecticut statute. Id. But Tabb’s argument
misses the point. Apart from my disagreement with the
holding and applicability of Villanueva, this Court is required to follow Walker “unless and until it is overruled in
a precedential opinion by the Second Circuit itself or unless a subsequent decision of the Supreme Court so undermines it that it will almost inevitably be overruled by
the Second Circuit.” Rainey v. United States, No. 14-CR197 (JMF), 2017 WL 507294, at *2 (S.D.N.Y. Feb. 7, 2017)
(internal quotation marks omitted) (quoting United
States v. Diaz, 122 F. Supp. 3d 165, 179 (S.D.N.Y. 2015)).
“The precise question for this Court, then, is not whether,
by its own analysis” later Supreme Court cases imply a
different result than the one reached in Walker, but
whether a later decision “so conclusively supports [a] finding that the Second Circuit or the Supreme Court is all
but certain to overrule” its prior decision. United States
v. Emmenegger, 329 F. Supp. 2d 416, 429 (S.D.N.Y. 2004).
There is no reason to believe this is so. The Second Circuit
has twice held, albeit in unpublished orders, that Walker
remains good law. See United States v. Rios, No. 16-2882,
2017 WL 5952691, at *2 (2d Cir. Dec. 1, 2017); Harris v.
United States, No. 15-2679, Docket No. 38 (2d Cir. Nov.
17, 2015). And courts in this district have continued to apply Walker accordingly. See, e.g., Rainey v. United States,
No. 14-CR-197 (JMF), 2017 WL 507294, at *2 (S.D.N.Y.

20a
Feb. 7, 2017); Williams v. United States, No. 15 CIV. 3302
(RMB), 2015 WL 4563470, at *5 (S.D.N.Y. July 20, 2015),
aff’d, No. 15-2674, 2017 WL 4857449 (2d Cir. Oct. 26,
2017).
The Supreme Court’s decision in Johnson v. United
States, 135 S. Ct. 2551 (2015) also does not compel a different conclusion. In Johnson, the Court held that the “residual clause” in the “violent felony” provision of the
Armed Career Criminal Act, codified at 18 U.S.C.
§ 924(e), was void for vagueness. Id. at 2563. Previous iterations of Section 4B1.2(a) contained an identical residual clause, which defined a “crime of violence” as “burglary of a dwelling, arson, or extortion, involves use of explosives, or otherwise involves conduct that presents a serious potential risk of physical injury to another.”
U.S.S.G. § 4B1.2(a)(2) (2015) (emphasis added). In response to Johnson, the Sentencing Commission removed
the residual clause from the career offender sentencing
enhancement. See U.S.S.G. § 4B1.2(a). But Walker did not
rely exclusively on the residual clause to hold that attempted assault under New York Penal Law § 120.05(2)
qualifies as a “crime of violence.” Walker, 442 F.3d at 788.
Instead, Walker specifically held that attempted assault
under New York law qualifies as a crime of violence also
under the “force clause” of Section 4B1.2(a)(1). Id.; see
also Rainey, No. 14-CR-197 (JMF), 2017 WL 507294, at
*2. There is therefore no indication that Johnson undermines the Second Circuit’s holding in Walker.
Finally, Tabb contends that because he was convicted
for attempted assault, an inchoate offense, rather than the
underlying crime, his conviction does not constitute a
crime of violence under Section 4B1.2(a). Notwithstanding Tabb’s creative construction of the federal and state
law on this point, the Second Circuit’s decision in Walker
disposes of this question. Walker itself involved precisely

21a
the same charge at issue here—attempted assault under
New York Penal Law § 120.05(2). Walker, 442 F.3d at 788.
Furthermore, under New York law “[a] person is guilty of
an attempt to commit a crime when, with intent to commit
a crime, he engages in conduct which tends to effect the
commission of such crime.” New York Penal Law § 110.00.
This has been understood to mean that “[t]he act need not
be the final one towards the completion of the offense … ,
but it must carry the project forward within dangerous
proximity to the criminal end to be attained.” People v.
Bracey, 41 N.Y.2d 296, 300 (1977) (internal quotation
marks omitted) (first quoting People v. Sullivan, 173 N.Y.
122, 133 (1903), and then quoting People v. Werblow, 241
N.Y. 55, 61 (1925)). Accordingly, in reasoning and under
precedent, I find that Tabb’s conviction was for a crime of
violence.
B. Defendant’s Attempted Assault Conviction

For similar reasons, binding Second Circuit precedent
requires the Court to find that Tabb’s second conviction
for conspiracy to distribute narcotics under 21 U.S.C.
§ 846 qualifies as a “controlled substance offense” under
Section 4B1.2(b). Specifically, in United States v. Jackson,
the Second Circuit explicitly held that drug conspiracy
convictions under Section 846 “qualify as controlled substance offenses” for purposes of the career criminal enhancement. 60 F.3d 128, 133 (2d Cir. 1995).
To avoid this result, Tabb argues that the Court
should instead adopt the Tenth Circuit’s outlier approach
to this question. In United States v. Martinez-Cruz, the
Tenth Circuit applied the categorical approach and concluded that because 21 U.S.C. § 846 does not include an
overt act requirement, it does not match the generic conspiracy definition found in state and federal law. See 836

22a
F.3d 1305, 1314 (10th Cir. 2016).3 But the Tenth Circuit
readily acknowledged that its decision “pits us against out
sister circuits.” Id.4 And more importantly, even if the
Second Circuit’s decision in Jackson did not consider precisely the same arguments raised here, I am bound to follow Second Circuit precedent unless it is abundantly clear
that later developments in the law render it untenable.
See Diaz, 122 F. Supp. 3d at 179. No such showing has
been made.
Finally, my conclusion is also supported by Application Note 1 to Section 4B1.2 of the Guidelines, which instructs that the terms “crime of violence” and “controlled
substance offense” include attempt and conspiracy
charges. See U.S.S.G. § 4B1.2, application note 1. Tabb argues that the Court should not apply the application note
because it expands the text of Section 4B1.2 of the Guidelines to the point of inconsistency. I disagree. The Supreme Court has held that “commentary in the Guidelines
Manual that interprets or explains a guideline is authoritative unless it violates the Constitution or a federal statute, or is inconsistent with, or a plainly erroneous reading
of, that guideline.” Stinson v. United States, 508 U.S. 36,
38 (1993). Were the Court to decide this issue on a clean
The Court acknowledges that a Maryland District Court adopted
a similar approach in analyzing a defendant’s prior conviction for
RICO conspiracy under 18 U.S.C. § 1962. See United States v. Lisbon,
No. CR JKB-16-485, 2017 WL 3034799, at *2 (D. Md. July 18, 2017).
The district court in Lisbon ultimately determined that the rule of
lenity required the Court not to apply Application Note 1 of Section
4B1.2, but alternatively suggested that the categorical approach to
the conspiracy statute at issue would not make the defendant a career
offender. Id. I decline to follow this approach.
3

For instance. the Ninth Circuit in United States v Rivera-Constantino, 798 F.3d 900, 906 (9th Cir. 2015) held that the plain language
of the term “controlled substances offense” clearly includes a conspiracy conviction under 21 U.S.C. § 846.
4

23a
slate, I would hold that it is plainly consistent with the text
of the Section 4B1.2 to include inchoate or conspiracy
charges as covered offenses. And, once again, the Second
Circuit has explicitly considered this issue in Jackson,
holding that Application Note 1 merely interprets Section
4B1.2 and is therefore binding on sentencing courts. Jackson, 60 F.3d at 131.
For the reasons stated on the record and supplemented herein, I hold that Tabb’s prior convictions under
New York Penal Law § 120.05(2) and 21 U.S.C. § 846 subject him to the career offender enhancement under Section 4B1.2 of the Guidelines.
SO ORDERED.
Dated:

January 26, 2018
New York, New York
s/
ALVIN K. HELLERSTEIN
United States District Judge

24a
APPENDIX C
UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT

—
At a stated term of the United States Court of Appeals for the Second Circuit, held at the Thurgood Marshall United States Courthouse, 40 Foley Square, in the
City of New York, on the 1st day of June, two thousand
twenty.
UNITED STATES OF AMERICA,
Appellee,
v.
ZIMMIAN TABB,
Defendant-Appellant.
ORDER

Docket No: 18-338
Appellant, Zimmian Tabb, filed a petition for panel
rehearing, or, in the alternative, for rehearing en banc.
The panel that determined the appeal has considered the
request for panel rehearing, and the active members of
the Court have considered the request for rehearing en
banc.
IT IS HEREBY ORDERED that the petition is denied.
FOR THE COURT:
Catherine O’Hagan Wolfe, Clerk

25a
APPENDIX D
U.S. CODE PROVISIONS
21 U.S.C. § 846. Attempt and conspiracy.

Any person who attempts or conspires to commit any offense defined in this subchapter shall be subject to the
same penalties as those prescribed for the offense, the
commission of which was the object of the attempt or conspiracy.
28 U.S.C. § 991. United States Sentencing Commission; establishment and purposes.

(a) There is established as an independent commission in
the judicial branch of the United States a United States
Sentencing Commission which shall consist of seven voting members and one nonvoting member. The President,
after consultation with representatives of judges, prosecuting attorneys, defense attorneys, law enforcement officials, senior citizens, victims of crime, and others interested in the criminal justice process, shall appoint the voting members of the Commission, by and with the advice
and consent of the Senate, one of whom shall be appointed, by and with the advice and consent of the Senate,
as the Chair and three of whom shall be designated by the
President as Vice Chairs. At least 3 of the members shall
be Federal judges selected after considering a list of six
judges recommended to the President by the Judicial
Conference of the United States. Not more than four of
the members of the Commission shall be members of the
same political party, and of the three Vice Chairs, no more
than two shall be members of the same political party. The
Attorney General, or the Attorney General’s designee,
shall be an ex officio, nonvoting member of the Commission. The Chair, Vice Chairs, and members of the Commission shall be subject to removal from the Commission

26a
by the President only for neglect of duty or malfeasance
in office or for other good cause shown.
(b) The purposes of the United States Sentencing Commission are to—
(1) establish sentencing policies and practices for the
Federal criminal justice system that—
(A) assure the meeting of the purposes of sentencing
as set forth in section 3553(a)(2) of title 18, United
States Code;
(B) provide certainty and fairness in meeting the purposes of sentencing, avoiding unwarranted sentencing
disparities among defendants with similar records
who have been found guilty of similar criminal conduct
while maintaining sufficient flexibility to permit individualized sentences when warranted by mitigating or
aggravating factors not taken into account in the establishment of general sentencing practices; and
(C) reflect, to the extent practicable, advancement in
knowledge of human behavior as it relates to the criminal justice process; and
(2) develop means of measuring the degree to which the
sentencing, penal, and correctional practices are effective
in meeting the purposes of sentencing as set forth in section 3553(a)(2) of title 18, United States Code.

27a
28 U.S.C. § 994. Duties of the Commission.

(a) The Commission, by affirmative vote of at least four
members of the Commission, and pursuant to its rules and
regulations and consistent with all pertinent provisions of
any Federal statute shall promulgate and distribute to all
courts of the United States and to the United States Probation System—
(1) guidelines, as described in this section, for use of a
sentencing court in determining the sentence to be imposed in a criminal case, including—
(A) a determination whether to impose a sentence to
probation, a fine, or a term of imprisonment;
(B) a determination as to the appropriate amount of a
fine or the appropriate length of a term of probation
or a term of imprisonment;
(C) a determination whether a sentence to a term of
imprisonment should include a requirement that the
defendant be placed on a term of supervised release
after imprisonment, and, if so, the appropriate length
of such a term;
(D) a determination whether multiple sentences to
terms of imprisonment should be ordered to run concurrently or consecutively; and
(E) a determination under paragraphs (6) and (11) of
section 3563(b) of title 18;
(2) general policy statements regarding application of
the guidelines or any other aspect of sentencing or sentence implementation that in the view of the Commission would further the purposes set forth in section
3553(a)(2) of title 18, United States Code, including the
appropriate use of—

28a
(A) the sanctions set forth in sections 3554, 3555, and
3556 of title 18;
(B) the conditions of probation and supervised release
set forth in sections 3563(b) and 3583(d) of title 18;
(C) the sentence modification provisions set forth in
sections 3563(c), 3564, 3573, and 3582(c) of title 18;
(D) the fine imposition provisions set forth in section
3572 of title 18;
(E) the authority granted under rule 11(e)(2) of the
Federal Rules of Criminal Procedure to accept or reject a plea agreement entered into pursuant to rule
11(e)(1); and
(F) the temporary release provisions set forth in section 3622 of title 18, and the prerelease custody provisions set forth in section 3624(c) of title 18; and
(3) guidelines or general policy statements regarding
the appropriate use of the provisions for revocation of
probation set forth in section 3565 of title 18, and the
provisions for modification of the term or conditions of
supervised release and revocation of supervised release
set forth in section 3583(e) of title 18.
(b)(1) The Commission, in the guidelines promulgated
pursuant to subsection (a)(1), shall, for each category of
offense involving each category of defendant, establish a
sentencing range that is consistent with all pertinent provisions of title 18, United States Code.
(2) If a sentence specified by the guidelines includes a
term of imprisonment, the maximum of the range established for such a term shall not exceed the minimum of
that range by more than the greater of 25 percent or 6
months, except that, if the minimum term of the range

29a
is 30 years or more, the maximum may be life imprisonment.
(c) The Commission, in establishing categories of offenses
for use in the guidelines and policy statements governing
the imposition of sentences of probation, a fine, or imprisonment, governing the imposition of other authorized
sanctions, governing the size of a fine or the length of a
term of probation, imprisonment, or supervised release,
and governing the conditions of probation, supervised release, or imprisonment, shall consider whether the following matters, among others, have any relevance to the nature, extent, place of service, or other incidents of an appropriate sentence, and shall take them into account only
to the extent that they do have relevance—
(1) the grade of the offense;
(2) the circumstances under which the offense was committed which mitigate or aggravate the seriousness of
the offense;
(3) the nature and degree of the harm caused by the offense, including whether it involved property, irreplaceable property, a person, a number of persons, or a
breach of public trust;
(4) the community view of the gravity of the offense;
(5) the public concern generated by the offense;
(6) the deterrent effect a particular sentence may have
on the commission of the offense by others; and
(7) the current incidence of the offense in the community
and in the Nation as a whole.

30a
(d) The Commission in establishing categories of defendants for use in the guidelines and policy statements governing the imposition of sentences of probation, a fine, or
imprisonment, governing the imposition of other authorized sanctions, governing the size of a fine or the length of
a term of probation, imprisonment, or supervised release,
and governing the conditions of probation, supervised release, or imprisonment, shall consider whether the following matters, among others, with respect to a defendant,
have any relevance to the nature, extent, place of service,
or other incidents of an appropriate sentence, and shall
take them into account only to the extent that they do
have relevance—
(1) age;
(2) education;
(3) vocational skills;
(4) mental and emotional condition to the extent that
such condition mitigates the defendant’s culpability or
to the extent that such condition is otherwise plainly relevant;
(5) physical condition, including drug dependence;
(6) previous employment record;
(7) family ties and responsibilities;
(8) community ties;
(9) role in the offense;
(10) criminal history; and
(11) degree of dependence upon criminal activity for a
livelihood.

31a
The Commission shall assure that the guidelines and policy statements are entirely neutral as to the race, sex, national origin, creed, and socioeconomic status of offenders.
(e) The Commission shall assure that the guidelines and
policy statements, in recommending a term of imprisonment or length of a term of imprisonment, reflect the general inappropriateness of considering the education, vocational skills, employment record, family ties and responsibilities, and community ties of the defendant.
(f) The Commission, in promulgating guidelines pursuant
to subsection (a)(1), shall promote the purposes set forth
in section 991(b)(1), with particular attention to the requirements of subsection 991(b)(1)(B) for providing certainty and fairness in sentencing and reducing unwarranted sentence disparities.
(g) The Commission, in promulgating guidelines pursuant
to subsection (a)(1) to meet the purposes of sentencing as
set forth in section 3553(a)(2) of title 18, United States
Code, shall take into account the nature and capacity of
the penal, correctional, and other facilities and services
available, and shall make recommendations concerning
any change or expansion in the nature or capacity of such
facilities and services that might become necessary as a
result of the guidelines promulgated pursuant to the provisions of this chapter. The sentencing guidelines prescribed under this chapter shall be formulated to minimize the likelihood that the Federal prison population will
exceed the capacity of the Federal prisons, as determined
by the Commission.
(h) The Commission shall assure that the guidelines specify a sentence to a term of imprisonment at or near the
maximum term authorized for categories of defendants in
which the defendant is eighteen years old or older and—

32a
(1) has been convicted of a felony that is—
(A) a crime of violence; or
(B) an offense described in section 401 of the Controlled Substances Act (21 U.S.C. 841), sections
1002(a), 1005, and 1009 of the Controlled Substances
Import and Export Act (21 U.S.C. 952(a), 955, and
959), and chapter 705 of title 46; and
(2) has previously been convicted of two or more prior
felonies, each of which is—
(A) a crime of violence; or
(B) an offense described in section 401 of the Controlled Substances Act (21 U.S.C. 841), sections
1002(a), 1005, and 1009 of the Controlled Substances
Import and Export Act (21 U.S.C. 952(a), 955, and
959), and chapter 705 of title 46.
(i) The Commission shall assure that the guidelines specify a sentence to a substantial term of imprisonment for
categories of defendants in which the defendant—
(1) has a history of two or more prior Federal, State, or
local felony convictions for offenses committed on different occasions;
(2) committed the offense as part of a pattern of criminal
conduct from which the defendant derived a substantial
portion of the defendant’s income;
(3) committed the offense in furtherance of a conspiracy
with three or more persons engaging in a pattern of
racketeering activity in which the defendant participated in a managerial or supervisory capacity;
(4) committed a crime of violence that constitutes a felony while on release pending trial, sentence, or appeal

33a
from a Federal, State, or local felony for which he was
ultimately convicted; or
(5) committed a felony that is set forth in section 401 or
1010 of the Comprehensive Drug Abuse Prevention and
Control Act of 1970 (21 U.S.C. 841 and 960), and that involved trafficking in a substantial quantity of a controlled substance.
(j) The Commission shall insure that the guidelines reflect
the general appropriateness of imposing a sentence other
than imprisonment in cases in which the defendant is a
first offender who has not been convicted of a crime of violence or an otherwise serious offense, and the general appropriateness of imposing a term of imprisonment on a
person convicted of a crime of violence that results in serious bodily injury.
(k) The Commission shall insure that the guidelines reflect the inappropriateness of imposing a sentence to a
term of imprisonment for the purpose of rehabilitating the
defendant or providing the defendant with needed educational or vocational training, medical care, or other correctional treatment.
(l) The Commission shall insure that the guidelines promulgated pursuant to subsection (a)(1) reflect—
(1) the appropriateness of imposing an incremental penalty for each offense in a case in which a defendant is
convicted of—
(A) multiple offenses committed in the same course of
conduct that result in the exercise of ancillary jurisdiction over one or more of the offenses; and
(B) multiple offenses committed at different times, including those cases in which the subsequent offense is
a violation of section 3146 (penalty for failure to

34a
appear) or is committed while the person is released
pursuant to the provisions of section 3147 (penalty for
an offense committed while on release) of title 18; and
(2) the general inappropriateness of imposing consecutive terms of imprisonment for an offense of conspiring
to commit an offense or soliciting commission of an offense and for an offense that was the sole object of the
conspiracy or solicitation.
(m) The Commission shall insure that the guidelines reflect the fact that, in many cases, current sentences do not
accurately reflect the seriousness of the offense. This will
require that, as a starting point in its development of the
initial sets of guidelines for particular categories of cases,
the Commission ascertain the average sentences imposed
in such categories of cases prior to the creation of the
Commission, and in cases involving sentences to terms of
imprisonment, the length of such terms actually served.
The Commission shall not be bound by such average sentences, and shall independently develop a sentencing
range that is consistent with the purposes of sentencing
described in section 3553(a)(2) of title 18, United States
Code.
(n) The Commission shall assure that the guidelines reflect the general appropriateness of imposing a lower sentence than would otherwise be imposed, including a sentence that is lower than that established by statute as a
minimum sentence, to take into account a defendant’s substantial assistance in the investigation or prosecution of
another person who has committed an offense.

35a
(o) The Commission periodically shall review and revise,
in consideration of comments and data coming to its attention, the guidelines promulgated pursuant to the provisions of this section. In fulfilling its duties and in exercising its powers, the Commission shall consult with authorities on, and individual and institutional representatives of, various aspects of the Federal criminal justice
system. The United States Probation System, the Bureau
of Prisons, the Judicial Conference of the United States,
the Criminal Division of the United States Department of
Justice, and a representative of the Federal Public Defenders shall submit to the Commission any observations,
comments, or questions pertinent to the work of the Commission whenever they believe such communication would
be useful, and shall, at least annually, submit to the Commission a written report commenting on the operation of
the Commission’s guidelines, suggesting changes in the
guidelines that appear to be warranted, and otherwise assessing the Commission’s work.
(p) The Commission, at or after the beginning of a regular
session of Congress, but not later than the first day of
May, may promulgate under subsection (a) of this section
and submit to Congress amendments to the guidelines
and modifications to previously submitted amendments
that have not taken effect, including modifications to the
effective dates of such amendments. Such an amendment
or modification shall be accompanied by a statement of the
reasons therefor and shall take effect on a date specified
by the Commission, which shall be no earlier than 180
days after being so submitted and no later than the first
day of November of the calendar year in which the amendment or modification is submitted, except to the extent
that the effective date is revised or the amendment is otherwise modified or disapproved by Act of Congress.

36a
(q) The Commission and the Bureau of Prisons shall submit to Congress an analysis and recommendations concerning maximum utilization of resources to deal effectively with the Federal prison population. Such report
shall be based upon consideration of a variety of alternatives, including—
(1) modernization of existing facilities;
(2) inmate classification and periodic review of such classification for use in placing inmates in the least restrictive facility necessary to ensure adequate security; and
(3) use of existing Federal facilities, such as those currently within military jurisdiction.
(r) The Commission, not later than two years after the initial set of sentencing guidelines promulgated under subsection (a) goes into effect, and thereafter whenever it
finds it advisable, shall recommend to the Congress that
it raise or lower the grades, or otherwise modify the maximum penalties, of those offenses for which such an adjustment appears appropriate.
(s) The Commission shall give due consideration to any
petition filed by a defendant requesting modification of
the guidelines utilized in the sentencing of such defendant, on the basis of changed circumstances unrelated to
the defendant, including changes in—
(1) the community view of the gravity of the offense;
(2) the public concern generated by the offense; and
(3) the deterrent effect particular sentences may have
on the commission of the offense by others.
(t) The Commission, in promulgating general policy statements regarding the sentencing modification provisions in
section 3582(c)(1)(A) of title 18, shall describe what should
be considered extraordinary and compelling reasons for

37a
sentence reduction, including the criteria to be applied
and a list of specific examples. Rehabilitation of the defendant alone shall not be considered an extraordinary
and compelling reason.
(u) If the Commission reduces the term of imprisonment
recommended in the guidelines applicable to a particular
offense or category of offenses, it shall specify in what circumstances and by what amount the sentences of prisoners serving terms of imprisonment for the offense may be
reduced.
(v) The Commission shall ensure that the general policy
statements promulgated pursuant to subsection (a)(2) include a policy limiting consecutive terms of imprisonment
for an offense involving a violation of a general prohibition
and for an offense involving a violation of a specific prohibition encompassed within the general prohibition.
(w)(1) The Chief Judge of each district court shall ensure
that, within 30 days following entry of judgment in every
criminal case, the sentencing court submits to the Commission, in a format approved and required by the Commission, a written report of the sentence, the offense for
which it is imposed, the age, race, sex of the offender, and
information regarding factors made relevant by the
guidelines. The report shall also include—
(A) the judgment and commitment order;
(B) the written statement of reasons for the sentence
imposed (which shall include the reason for any departure from the otherwise applicable guideline range
and which shall be stated on the written statement of
reasons form issued by the Judicial Conference and
approved by the United States Sentencing Commission);

38a
(C) any plea agreement;
(D) the indictment or other charging document;
(E) the presentence report; and
(F) any other information as the Commission finds appropriate.
The information referred to in subparagraphs (A)
through (F) shall be submitted by the sentencing court
in a format approved and required by the Commission.
(2) The Commission shall, upon request, make available
to the House and Senate Committees on the Judiciary,
the written reports and all underlying records accompanying those reports described in this section, as well as
other records received from courts.
(3) The Commission shall submit to Congress at least
annually an analysis of these documents, any recommendations for legislation that the Commission concludes is warranted by that analysis, and an accounting
of those districts that the Commission believes have not
submitted the appropriate information and documents
required by this section.
(4) The Commission shall make available to the Attorney General, upon request, such data files as the Commission itself may assemble or maintain in electronic
form as a result of the information submitted under paragraph (1). Such data files shall be made available in
electronic form and shall include all data fields requested, including the identity of the sentencing judge.
(x) The provisions of section 553 of title 5, relating to publication in the Federal Register and public hearing procedure, shall apply to the promulgation of guidelines pursuant to this section.

39a
(y) The Commission, in promulgating guidelines pursuant
to subsection (a)(1), may include, as a component of a fine,
the expected costs to the Government of any imprisonment, supervised release, or probation sentence that is ordered.

40a
APPENDIX E
2016 U.S. SENTENCING GUIDELINES PROVISIONS
§1B1.7. Significance of Commentary.

The Commentary that accompanies the guideline sections
may serve a number of purposes. First, it may interpret
the guideline or explain how it is to be applied. Failure to
follow such commentary could constitute an incorrect application of the guidelines, subjecting the sentence to possible reversal on appeal. See 18 U.S.C. § 3742. Second, the
commentary may suggest circumstances which, in the
view of the Commission, may warrant departure from the
guidelines. Such commentary is to be treated as the legal
equivalent of a policy statement. Finally, the commentary
may provide background information, including factors
considered in promulgating the guideline or reasons underlying promulgation of the guideline. As with a policy
statement, such commentary may provide guidance in assessing the reasonableness of any departure from the
guidelines.
Commentary

Portions of this document not labeled as guidelines or
commentary also express the policy of the Commission or
provide guidance as to the interpretation and application
of the guidelines. These are to be construed as commentary and thus have the force of policy statements.
“[C]ommentary in the Guidelines Manual that interprets or explains a guideline is authoritative unless it violates the Constitution or a federal statute, or is inconsistent with, or a plainly erroneous reading of, that guideline.” Stinson v. United States, 508 U.S. 36, 38 (1993).

41a
§4B1.1. Career Offender.

(a) A defendant is a career offender if (1) the defendant
was at least eighteen years old at the time the defendant
committed the instant offense of conviction; (2) the instant
offense of conviction is a felony that is either a crime of
violence or a controlled substance offense; and (3) the defendant has at least two prior felony convictions of either
a crime of violence or a controlled substance offense.
(b) Except as provided in subsection (c), if the offense
level for a career offender from the table in this subsection
is greater than the offense level otherwise applicable, the
offense level from the table in this subsection shall apply.
A career offender’s criminal history category in every
case under this subsection shall be Category VI.
OFFENSE STATUTORY MAXIMUM
(1) Life
(2) 25 years or more
(3) 20 years or more, but less than 25
years
(4) 15 years or more, but less than 20
years
(5) 10 years or more, but less than 15
years
(6) 5 years or more, but less than 10
years
(7) More than 1 year, but less than 5
years

OFFENSE
LEVEL*
37
34
32
29
24
17
12

*If an adjustment from §3E1.1 (Acceptance of Responsibility) applies, decrease the offense level by the number of
levels corresponding to that adjustment.

42a
(c) If the defendant is convicted of 18 U.S.C. § 924(c) or
§ 929(a), and the defendant is determined to be a career
offender under subsection (a), the applicable guideline
range shall be determined as follows:
(1) If the only count of conviction is 18 U.S.C. § 924(c) or
§ 929(a), the applicable guideline range shall be determined using the table in subsection (c)(3).
(2) In the case of multiple counts of conviction in which
at least one of the counts is a conviction other than a conviction for 18 U.S.C. § 924(c) or § 929(a), the guideline
range shall be the greater of—
(A) the guideline range that results by adding the
mandatory minimum consecutive penalty required by
the 18 U.S.C. § 924(c) or § 929(a) count(s) to the minimum and the maximum of the otherwise applicable
guideline range determined for the count(s) of conviction other than the 18 U.S.C. § 924(c) or § 929(a)
count(s); and
(B) the guideline range determined using the table in
subsection (c)(3).
(3) CAREER OFFENDER TABLE FOR 18 U.S.C. § 924(C) OR
§ 929(A) OFFENDERS
§ 3E1.1 REDUCTION
No reduction
2-level reduction
3-level reduction

GUIDELINE RANGE FOR THE 18
U.S.C. § 924(C) OR § 929(A)
COUNT(S)
360–life
292–365
62–327.

43a
Commentary
Application Notes:

1. Definitions.—”Crime of violence,” “controlled substance offense,” and “two prior felony convictions” are
defined in §4B1.2.
*

*

*

§4B1.2. Definitions of Terms Used in Section 4B1.1

(a) The term “crime of violence” means any offense under
federal or state law, punishable by imprisonment for a
term exceeding one year, that—
(1) has as an element the use, attempted use, or threatened use of physical force against the person of another,
or
(2) is murder, voluntary manslaughter, kidnapping, aggravated assault, a forcible sex offense, robbery, arson,
extortion, or the use or unlawful possession of a firearm
described in 26 U.S.C. § 5845(a) or explosive material as
defined in 18 U.S.C. § 841(c).
(b) The term “controlled substance offense” means an offense under federal or state law, punishable by imprisonment for a term exceeding one year, that prohibits the
manufacture, import, export, distribution, or dispensing
of a controlled substance (or a counterfeit substance) or
the possession of a controlled substance (or a counterfeit
substance) with intent to manufacture, import, export,
distribute, or dispense.
(c) The term “two prior felony convictions” means (1) the
defendant committed the instant offense of conviction
subsequent to sustaining at least two felony convictions of
either a crime of violence or a controlled substance offense
(i.e., two felony convictions of a crime of violence, two felony convictions of a controlled substance offense, or one

44a
felony conviction of a crime of violence and one felony conviction of a controlled substance offense), and (2) the sentences for at least two of the aforementioned felony convictions are counted separately under the provisions of
§4A1.1(a), (b), or (c). The date that a defendant sustained
a conviction shall be the date that the guilt of the defendant has been established, whether by guilty plea, trial, or
plea of nolo contendere.
Commentary
Application Notes:
1. Definitions.—For purposes of this guideline—
“Crime of violence” and “controlled substance offense”
include the offenses of aiding and abetting, conspiring,
and attempting to commit such offenses.
*

*

*

45a
APPENDIX F
DEFENDANT’S SUPPLEMENTAL LETTER BRIEF

October 28, 2019
*

*

*

Re: United States of America v. Zimmian Tabb
Docket No. 18-338
Dear Honorable Judges:
I am the attorney for Defendant-Appellant Zimmian
Tabb. Pursuant to this Court’s Order dated October 18,
2019, Tabb respectfully files this Sur-Sur-Reply letter
brief in response to the Government’s submission filed on
October 11, 2019.1 As he did in his reply brief, Tabb will
first address the Controlled Substance Offense point followed by the Crime of Violence point. The Rule of Lenity
is also then addressed.2

As to the government’s motion filed on May 29, 2019, Mr. Tabb
respectfully refers the Court to his response filed on May 31, 2019
as well as his main and reply briefs filed in this appeal.
1

“Gov Sur” refers to the government's second sur reply submission
filed on October 11, 2019. The other references and definitions used
herein are the same as those used in Tabb’s main and reply briefs.
2

46a
POINT ONE
PRIOR FEDERAL NARCOTICS CONSPIRACY CONVICTION IS NOT A QUALIFYING CONTROLLED SUBSTANCE OFFENSE PREDICATE

A. Introduction

Under the guise of supposedly updating this Court
with recent case law, the government instead also makes
arguments that should have been made in its opposition
brief or even in its first sur-reply brief. In any event, Tabb
anticipated and addressed most of these arguments in his
lengthy main and reply briefs, as well as in his subsequent
letter submitted pursuant to Rule 28(j), and respectfully
refers the Court to these submissions as well as the discussion below with regard to his response to the government’s most recent submission. For two independent reasons, Tabb’s Narcotics Conspiracy Conviction cannot
serve as a qualifying Controlled Substance Offense career
offender predicate. First, the Guideline itself unambiguously excludes all inchoate offenses from its reach and under these circumstances, the commentary cannot add
crimes to the Guideline text. Second, even if the commentary could add a conspiracy offense, Tabb’s Narcotics
Conspiracy Conviction would not qualify pursuant to a
categorical analysis since Title 21, United States Code,
Section 846 does not require the commission of an overt
act and the generic equivalent does so require.
B. Application Note 1 Improperly Adds Inchoate
Offenses To The Guideline Text

For purposes of applying the career offender enhancement of § 4B1.1 of the United States Sentencing Guidelines, § 4B1.2(b) defines a “controlled substance offense”
as follows:

47a
“The term ‘controlled substance offense’ means
an offense under federal or state law, punishable
by imprisonment for a term exceeding one year,
that prohibits the manufacture, import, export,
distribution, or dispensing of a controlled substance (or a counterfeit substance) or the possession of a controlled substance (or a counterfeit
substance) with intent to manufacture, import,
export, distribute, or dispense.” (emphasis
added).
Though the Commentary to this section, Application
Note 1, states in pertinent part that a “controlled substance offense” “includes the offenses of aiding and abetting, conspiring, and attempting to commit such offenses,”
it is the text of the Guideline itself which controls for purposes of determining whether a prior drug conviction
qualifies as a career offender predicate. This Guideline
definition, contained in the text itself, clearly, and quite
deliberately, does not include any inchoate offenses including that of conspiracy. Accordingly, Tabb’s Narcotics
Conspiracy Conviction does not qualify as a career offender predicate conviction because it is not listed as a
qualifying offense in the Guideline.
In United States v. Havis, 927 F.3d 382 (6th Cir. 2019)
(en banc) (motion for en banc reconsideration denied), the
Sixth Circuit recently and unanimously determined that
Application Note 1 cannot expand the text of § 4B1.2(b) to
include attempt crimes since the text itself does not include the crime of attempt. The Sixth Circuit reasoned
and held that:
“To make attempt crimes a part of § 4B1.2(b), the
Commission did not interpret a term in the
guideline itself—no term in § 4B1.2(b) would
bear that construction. [footnote omitted]. Rather, the Commission used Application Note 1 to

48a
add an offense not listed in the guideline. But application notes are to be “‘interpretations of not
additions to, the Guidelines themselves.” [citing
and quoting United States v. Rollins, 836 F.3d
737, 742 (7th Cir. 2016) (en banc)]. (emphasis in
original). If that were not so, the institutional
constraints that make the Guidelines constitutional in the first place—congressional review
and notice and comment—would lose their meaning. [citing and quoting United States v. Winstead, 890 F.3d 1082, 1092 (D.C. Cir. 2018)] (“ ‘if
the Commission wishes to expand the definition
of ‘controlled substance offenses’ to include attempts, it may seek to amend the language of the
guidelines by submitting the change for congressional review.”). The Commission’s use of commentary to add attempt crimes to the definition
of ‘controlled substance offense’ deserves no deference. The text of § 4B1.1(b) controls, and it
makes clear that attempt crimes do not qualify
as controlled substance offense.” (emphasis
added). Id. at 386-87.
The Havis decision directly and persuasively supports
Tabb’s argument that his prior federal narcotics conspiracy conviction does not constitute a qualifying “controlled
substance offense” for purposes of applying the career offender enhancement for precisely the same reason as set
forth in the Havis opinion concerning the crime of attempt because the text of the Guideline clearly excludes
inchoate crimes such as conspiracy and attempt. The
Havis decision is supported by other important decisions
from other Circuits including the cited unanimous en banc
Seventh Circuit decision in Rollins, the cited Winstead
decision from the D.C. Circuit, and other decisions including United States v. Soto-Rivera, 811 F.3d 53 (1st Cir.
2016) (“[T]he government’s position that we may rely on

49a
Application Note 1 . . . is hopeless. . . . There is simply no
mechanism or textual hook in the Guideline that allows us
to import offenses not specifically listed therein into
§ 4B1.2(a)’s definition of ‘crime of violence’) (emphasis
added)), and United States v. Bell, 840 F.3d 963, 967 (8th
Cir. 2016) (“The issue, then, is whether the government
can rely solely upon the commentary when it expands
upon the four offenses specifically enumerated in the
Guideline itself The answer is no.”) (emphasis in original)).3
In its most latest sur reply filing, the government
makes several spurious arguments as to the applicability
of Application Note 1 in an effort at sustaining the grossly
enhanced and improper sentencing of Tabb as a career offender. The government first contends that the decisions
in Havis and Winstead should not be extended to this
case” because the “question was resolved by United
States v. Jackson, 60 F.3d 128 (2d Cir. 1995).” The government argues that under Jackson, Application Note 1 ‘was
fully authorized’ by the relevant sentencing statutes” and
that “Application Note 1 is ‘authoritative’ under Stinson
v. United States, 508 U.S. 36 (1993), because it ‘interprets
and explains’ the Guidelines definitions of controlled substance offenses….” Id. at 131-33. The government next
Last month, pursuant to the Havis decision, the government
there (and arguably part of the same “government” pursuing this appeal against Tabb) agreed to a joint remand in a separate case involving a defendant who received an enhanced sentence on the basis of
Application Note 1 of § 4B1.2(b) for a prior drug trafficking conspiracy conviction. As the Joint Motion to Remand states, “In light of
Havis, the parties agree that Haggard's prior federal drug-trafficking conspiracy conviction should not have been used to enhance his
base offense level. Because Haggard's Guidelines range was miscalculated, these cases should be remanded to the district court for resentencing.” United States v. Haggard, 18-5806, ECF Doc 31 (6th Cir.
2019)
3

50a
contends that the well-reasoned decisions of Havis and
Winstead “are wrong on the merits” because these decisions “rely on three propositions, none of which withstands scrutiny.” In particular, according to the government, (1) the term “prohibits” somehow includes other offenses not actually stated in the Guideline, including inchoate offenses, (2) Stinson allows for additional crimes
to be added to a Guideline by way of commentary, and
(3) Application Note 1 was properly approved by Congress. (Gov Sur 7-14). These three additional arguments
are facially meritless as discussed below.
The government’s reliance on Jackson is misplaced
because that case did not actually resolve the issue being
considered here. From the earliest years of Sentencing
Guidelines jurisprudence, the Jackson case was principally concerned about whether Congress by statute had
authorized the Commission to expand the Guideline’s definition of a controlled substance offense to include inchoate offenses. The Court did not focus on whether the
Guidelines themselves properly reached inchoate offenses. Id. at 131. The Court made clear that the defendant was “not challeng[ing] the application of the Sentencing Guidelines, but instead . . . argue[d] that the Sentencing Commission exceeded its statutory mandate under 28
U.S.C. § 994(h) by including drug conspiracies as controlled substances offenses.” Id. The sole relevant holding
“confirm[ed] the statutory authority underlying Application Note 1 to § 4B1.2.” Id. at 133. Jackson did not decide
whether the Sentencing Commission’s expansion of that
definition through Application Note 1 was constitutionally
permissible under the Separation of Powers Doctrine, the
Administrative Procedure Act, and Supreme Court precedent as set forth in Stinson and Mistretta v. United
States, 488 U.S. 361 (1989). Instead, Jackson held that Application Note 1, which “broadened” the definition of

51a
“controlled substance offenses” to include inchoate
crimes, was an interpretation of the Guideline, and that
interpretation was “not inconsistent with, let alone a violation of, 28 U.S.C. § 994(h) or any other statute.” Id. at
131. Jackson only decided the statutory authority issue,
not the relevant constitutional and related principles at issue here.
Furthermore, to the extent that Jackson noted that
Application Note 1 was “binding authority” despite its expansion of the Guideline’s text, Jackson was deferring to
the Commission under Stinson. 60 F.3d at 131. However,
because Stinson does not warrant deference to the Commission’s expansion of a Guideline’s definition, neither can
Jackson. The plain reading of the text excludes inchoate
offenses such as conspiracy. This specific issue was not resolved in Jackson, and could not have been, since the defendant in that case did not raise it. Id. The Jackson decision is only binding on issues it actually adjudicated. See
United States v. Verdugo-Urquidez, 494 U.S. 259, 272
(1990). To the extent that Jackson passively accepted Application Note 1 as controlling on the Guideline text, its
cursory application of Stinson v. United States, 508 U.S.
36 (1993) is wholly irreconcilable with subsequent precedent including most recently from the Supreme Court.
In Kisor v. Wilkie 139 S. Ct. 2400 (2019), the Supreme
Court held that the deference doctrine as set forth in such
decisions as Stinson applies only if the statute or Guideline in question is “genuinely ambiguous.” 139 S. Ct. at
2408, 2414. As the Kisor decision reasoned, “a court cannot wave the ambiguity flag just because it found the regulation impenetrable on first read.” Id. at 2415. The court
must instead “exhaust all the ‘traditional tools’ of construction” —chief among them, the determination of
“plain meaning.” Id. at 2419 (quoting Chevron U.S.A. Inc.
v. Natural Resources Defense Council, Inc., 467 U.S. 837,

52a
843 n.9 (1984)). Jackson’s holding that Application Note 1
was authoritative was not based on any of these legal principles and would in any event be superseded by this precedent. Kisor requires courts to first determine “plain
meaning.” 139 S. Ct. at 2419. This Court should interpret
the Guidelines “as if they were a statute, giving the words
used their common meaning, absent a clearly expressed
manifestation of contrary intent.” United States v. Kirvan, 86 F.3d 309, 311 (2d Cir. 1996). Gleaning indirect
clues about intent and context from the Guideline’s history or other source material cannot overcome the unambiguous text of a Guideline. See, e.g., Milavetz, Gallop &
Milavetz, P.A. v. United States, 559 U.S. 229, 236 n.3
(2010) (“history is unnecessary in light of the statute’s unambiguous language.”).
The Guideline text here is unambiguous and does not
permit the addition of other offenses by way of the commentary language in Application Note 1. The plain meaning of “prohibit” is to forbid or directly proscribe the specified conduct in question. See Havis, 927 F.3d at 382 (en
banc (per curiam) (“[T]he guideline’s boilerplate use of
the term ‘prohibits’ simply states the obvious: criminal
statutes proscribe conduct.”); Connally v. Gen. Constr.
Co., 269 U.S. 385, 393 (1926) (“Penal statutes prohibit[]
the doing of certain things, and provide[e] a punishment
for their violation….”). The government’s expansive reading of the term “prohibits” to include additional crimes not
stated runs contrary to the plain text of the Guideline,
these legal principles, and frankly, common sense. Moreover, the use of the phrase “means an offense” excludes
any unstated definition of the term “controlled substance
offense” as a matter of law and statutory construction. See
Burgess v. United States, 553 U.S. 124, 130 (2008) (“ ‘As a
rule, [a] definition which declares what a term “means” . .
. excludes any meaning that is not stated.’ ”); Christopher

53a
v. Smith-Kline Beecham Corp., 567 U.S. 142, 162 (2012)
(recognizing that “Congress use[s] the narrower word
‘means’ . . . when it want[s] to cabin a definition to a specific list of enumerated items.”). Furthermore, as detailed
in Tabb’s reply brief (at 8-11), the omission of the use of
other words in the text of this Guideline that could be interpreted to classify the Guideline offense list as being
non-exhaustive, including “involving,” “including,” and
“relating to,” further demonstrates that the offense list in
§ 4B1.2(b) excludes offenses not expressly stated.
Nonetheless, despite the Guideline text’s specific
choice of limiting language, the government also contends
that this Court should disregard the Havis and Winstead
precedents because § 4B1.2(b) does not expressly exclude
inchoate offenses, so therefore, the Commission is not
prevented from expanding the Guideline text to include
such crimes. The government incorrectly cites to the Stinson decision itself for support of this proposition. In Stinson, the Supreme Court upheld the Commission’s exclusion of the offense of felony possession of a firearm from
the Crime of Violence definition. The Court did not uphold
the Commission’s exclusion on the grounds that commentary has any such free standing power but simply because
the Commission was reasonably interpreting the crime of
violence definition to exclude an offense that did not contain any actual act of violence. This provides no support
for the entirely different issue of commentary adding a
distinct and separate offense to a Guideline that clearly
excludes such a crime by deliberate omission as evidenced
by the specific words used in the Guideline text as well as
the Commission’s treatment of other Guideline sections.
The government’s strained reasoning puts the proverbial
cart before the horse, for Kisor requires that this Court
first determine whether § 4B1.2 itself contains genuine
ambiguity before turning to whether the commentary

54a
properly interprets it. 139 S. Ct. at 2414-15. A specified
list of proscribed criminal offenses that expressly includes
certain items unambiguously excludes items not on that
list. There is no requirement that the Guideline state that
everything omitted is excluded. See Antonin Scalia &
Bryan A. Garner, Reading Law 93 (2012) (“The principle
that a matter not covered is not covered is so obvious that
it seems absurd to recite it.”).
There is no ambiguity with regard to the specified offenses that are covered by the text of § 4B1.2(b). However,
even if there was even a speck of doubt remaining, the
structure and wording of the Sentencing Guidelines as a
whole dispels it. The government can offer no explanation
for why the Commission excluded inchoate offenses in
§ 4B1.2(b), and yet included inchoate offenses in many
other Guidelines such as: §§ 1B1.3(a)(1)(B), 2D1.12, 2K1.3,
2K1.5, 2K2.5, 2L2.2, and 2X1.1. Even more significantly,
the government can offer no explanation for the Commission’s decision to include inchoate offenses in another subsection of the very same Guideline. Section 4B1.2(a)(1) expressly includes offenses that have “an element the use,
attempted use, or threatened use of physical force.” (emphasis added). The Commission knew full well how to reference inchoate offenses when it so intended, and yet decided not to in the definition of a controlled substance offense, § 4B1.2(b).
The government’s discussion of the history of § 4B1.2
and Application Note 1 does not bolster its position that
additional offenses can be added to the Guideline by the
commentary. Even assuming the described history could
overcome the plain reading of the text of the Guideline
which it cannot do, this history actually favors Tabb’s position. During the last three decades or so, the Commission submitted the Guidelines with commentary for approval on multiple occasions. The Commission could have

55a
taken the Constitutionally required and simple step of
adding inchoate offenses to the text of the Guideline, assuring that Congress would be certain to review it as required by statute after notice and comment. Yet each and
every time, the Commission left inchoate offenses in the
commentary only, which Congress has no obligation to review and is not on notice to review. See 28 U.S.C. § 994(p).
In the main, the government attempts to make a
broader argument relating to the history of § 4B1.2 that
would fundamentally restructure the relationship between the Commission and Congress and would in the
process violate the holding of Mistretta. According to the
government, because the Commission submitted Application Note 1 to Congress alongside the Guidelines, the
commentary should be as equally binding as the actual
text of § 4B1.2(b). Put another way, that Congress may
have received Application Note 1 for review, with the actual Guideline text, means that Application Note 1 can add
to the actual text of § 4B1.2(b). A similar argument was
made by the government in Havis when it sought en banc
reconsideration in the Sixth Circuit. Judge Sutton explained why such an argument is not reconcilable with
statute and precedent. “Congress is on notice that it must
review proposed textual amendments to the guidelines
within a certain time period, so we can assume Congress
approves them unless it says otherwise.” Havis, 929 F.3d
at 320 (emphasis added) (citing 28 U.S.C. §994(p)); Mistretta, 488 U.S. at 393-94. However, “No such statutory
provision requires the commission to submit proposed
commentary to Congress.” 929 F.3d at 320. The fact that
Congress occasionally takes notice and rejects certain
amendments to commentary cannot alter the structural
relationship between authoritative Guidelines subject to
mandatory review, and notice and comment, and interpretative commentary which is not.

56a
The government’s argument that Application Note 1
can add additional offenses to a Guideline text that excludes them would violate precedent establishing the relationship between the text of the Guidelines and the commentary, precedent based on an analogy to agency regulations and agency interpretations of those regulations.
Specifically, Stinson held that the Commission’s commentary was the logical equivalent of an agency’s interpretation of its own legislative rule. 508 U.S. at 44. The government’s position would treat commentary like the agency
regulation itself. This argument would require the overruling of not just Stinson, but also Mistretta, which upheld the Sentencing Commission’s authority to promulgate Guidelines on the basis that Congress has statutory
responsibility to review the Guidelines. 488 U.S. at 371-79.
Congress has no such responsibility for the commentary.
Havis, 929 F.3d at 320 (Sutton, J., concurring in the denial
of en banc rehearing). If Congress’s opportunity to voluntarily weigh in on commentary were an adequate safeguard, then there would no Auer doctrine at all. See Auer
v. Robbins, 519 U.S. 452 (1997). Congress’ always-present
ability to voluntarily examine agencies’ interpretations of
their rules would mean that those interpretations have exactly the same status and force as the rules themselves.
This is not the law in the context of any agency including
the Sentencing Commission and especially where the
stakes involving freedom deprivation are particularly
high. See Havis, 927 F.3d at 385 (en bank) (per curiam)
(“The Commission . . . exercises a sizable piece of the ultimate governmental power, short of capital punishment —
the power to take away someone’s liberty.” (internal quotations omitted)).
In analyzing the government’s argument that Congress has somehow endorsed the commentary’s expansion of § 4B1.2(b) to include inchoate offenses such as

57a
conspiracies, this Court should inquire why the Commission has not taken the straightforward step, before December 2018, of simply adding such additional offenses to
the text. Though the Commission has now proposed such
an addition, the Amendment has not been ratified and is
not applicable to this case. See 83 Fed. Reg. 65,400, 6541215 (Dec 20, 2018). That the Commission viewed amendment as necessary in light of recent Circuit decisions, supports Tabb’s position, not the government’s, as those
cases, including now Havis and Winstead, are unquestionably correct. Indeed, it can be reasonably expected
that more Circuits will be joining the Sixth and D.C. Circuits on this important issue. For example, the Ninth Circuit recently declared that if it “were free to do so, [it]
would follow the Sixth and D.C. Circuits’ lead.” United
States v. Crum, 934 F.3d 963, 966 (9th Cir. 2019) (per curiam) (“Like the Sixth and D.C. Circuits, we are troubled
that the Sentencing Commission has exercised its interpretive authority to expand the definition of ‘controlled
substance offense’ in this way, without any grounding in
the text of § 4B1.2(b) and without affording any opportunity for opportunity for congressional review.”). As discussed above, the Jackson decision did not directly address the complexities of the issue at hand and such issues
were not even argued by the parties. Unlike the Ninth
Circuit, the Second Circuit has in fact the freedom to join
in the correct and authoritative holdings of Havis and
Winstead, and indeed should do so on this appeal.
In this case, the Guideline defining what constitutes a
Controlled Substance Offense for purposes of applying
the career offender Guideline is crystal clear. The government’s arguments in favor of deference under Stinson
simply cannot apply especially in light of the doctrine set
forth in Kisor, 139 S. Ct. at 2414-15. In any event, Application Note 1 does not even interpret § 4B1.2 and thus

58a
cannot benefit from any principle of agency deference.
“[O]ne does not ‘interpret’ a text by adding to it.” United
States v. Havis, 907 F.3d 439, 450 (6th Cir. 2018 (Thapar,
J., concurring) “[C]ourts must keep Guidelines text and
Guidelines commentary, which are two difference vehicles, in their respective lanes.” Id. at 443. In this context,
the Stinson doctrine, however attenuated by Kisor, is actually irrelevant. Commentary that adds to a Guideline
cannot fall within Stinson’s framework at all unless it
truly interprets the text of a guideline, and only if such
text is ambiguous and requires interpretation. Kisor may
have preserved aspects of agency deference under Auer,
but it clearly disapproved of any doctrine, like that set
forth in the Stinson decision, that would preserve an
agency’s interpretation unless plainly erroneous or inconsistent with the text.
Accordingly, the commentary language of Application
Note 1 cannot add an inchoate offense such as conspiracy
to the list of offenses set forth in § 4B1.2. On this ground
alone, Tabb’s career offender sentence was unlawful.
C. Generic Definition Of Conspiracy Requires The
Commission Of An Overt Act

Even if Application Note 1 were to be found to expand
the list of offenses set forth in § 4B1.2(b), Tabb’s Narcotics Conspiracy Conviction still would not qualify since the
underlying offense of conviction, Title 21, United States
Code, Section 846, does not require the commission of an
overt act in contrast to the generic definition for such an
offense that does so require. Section 846 therefore includes more conduct than its generic equivalent and is a
categorical mismatch and not a qualifying offense for purposes of applying the career offender Guideline as extensively argued in Tabb’s main and reply briefs.

59a
In its latest sur-reply filing, the government makes
several meritless arguments that the failure of § 846 to
match its generic counterpart is no bar to characterizing
Tabb’s Narcotics Conspiracy Conviction as a qualifying
career offender predicate. The government first claims
that the Jackson decision “has already resolved the issue
. . .” (Gov Sur 15). However, as discussed above and in
Tabb’s prior submissions, Jackson never addressed, either directly or indirectly, the generic conspiracy argument, or even the categorical approach, and no party in
that case made any such argument for the Court to address. The Jackson case was about statutory authority,
and the defendant there did not challenge the application
of the Guidelines at all, let alone bring up issues concerning generic conspiracy and applicability of the categorical
approach. Jackson has no precedential impact here and
this panel is free to render a decision on the merits given
the existing and more recent case law precedent and other
legal principles. See Brecht v. Abrahamson, 507 U.S. 619,
631 (1993) (“since we have never squarely addressed the
issue, . . . we are free to address the issue on the merits.”).
The generic conspiracy argument is one of first impression in this Circuit.
The government next claims that still more Circuit decisions with which it disagrees “are [also] wrong on the
merits,” namely now the decisions of United States v.
Norman, 935 F.3d 232 (4th Cir. 2019) and United States
v. Martinez-Cruz, 836 F.3d 1305 (10th Cir. 2016) because
(1) there is no need to apply a generic definition of a conspiracy that requires an overt act pursuant to the categorical approach, and (2) generic conspiracy does not require
an overt act (Gov Sur at 14-21). On the contrary, these decisions from both the Sixth and the Tenth Circuits, among
others, correctly apply the categorical approach to find
that the generic definition of a conspiracy offense requires

60a
the commission of an overt act, and hold that the federal
narcotics conspiracy provision under 21 U.S.C. § 846 may
not be used to enhance sentences under §§ 4B1.1 and
2L1.2 because § 846 has no overt act element. Because the
government’s arguments cannot be reconciled with the
well-reasoned and fully supported holdings from these additional sister Circuits, this Court should reverse Tabb’s
career offender sentence and order that he be re-sentenced as a non-career offender.
There are sound reasons to apply a categorical approach with regard to the definition set forth in § 4B1.2(b)
in order to determine the generic definition of the inchoate crimes listed in Application Note 1. As detailed by
Tabb in his reply brief, Application Note 1 lists three inchoate offenses without providing any definition whatsoever. Furthermore, neither the text of the Guideline or
the commentary refers to the federal narcotics conspiracy
statute. By mentioning the term “conspiring” without any
further elaboration, the Sentencing Commission meant
for the term to carry its generic definition. See MartinezCruz, 836 F.3d at 1313 (reasoning that because the Commission did not define “conspiring” or otherwise reference
any specific federal conspiracy statutes, the Commission
“instead provided a generic, undefined word ripe for the
categorical approach.”).
The exclusion of § 846 from a categorical, generic-definition analysis, as the government seems to recommend,
would conflict with the rationale and holding in Taylor v.
United States, 495 U.S. 575 (1990). Taylor found that a
uniform definition, focused on the elements of the offense,
was essential in order to “protect[] offenders from the unfairness of having enhancement depend upon the label
employed by the state of conviction. Id. at 589. The government’s recommended approach here of excluding § 846
would lead to precisely this type of unfairness, as the

61a
career offender enhancement would depend not on the elements of the prior conviction, but instead on where the
conviction took place and whether the conviction was federal or state. It should be noted that the commentary’s use
of the term “conspiring” applies not just to the definition
of a Controlled Substance Offense but also to its definition
of a Crime of Violence, which in turn also covers a wide
array of state and federal crimes. The term “conspiring”
must be given the same meaning across these various jurisdictions and contexts. See, e.g., Robers v. United States,
572 U.S. 639, 643 (2014). See also United States v. Davis,
139 S.Ct. 2319 (2019) (rejecting case specific approach and
confirming a uniform categorical approach for
§924(c)(3)(B)). The interpretation of Application Note 1 in
a way that excludes § 846 by no means forecloses meaningful use of the career offender enhancement if the government so chooses. In select cases, the government
would have the option of charging and proving narcotics
conspiracies under Title 18, United States Code, Section
371, the general conspiracy statute, which does require
proof of an overt act and consequently satisfies the generic definition of a conspiratorial offense, in lieu of § 846
which does not. Nor should it matter that defendants convicted of conspiring under § 846 are subject to the same
penalties as those defendants convicted as principals under § 841. The fact that two or more offenses subject defendants to the same penalty does not mean that the offenses, and the elements of such offenses, are the same.
They are not. The Commission here only chose to include
substantive offenses in the actual text of the Guideline.
The cases cited by the government in its latest filing favoring an antiquated common law definition of conspiracy
simply do not support a contrary approach and cannot
overcome the precedential force of Taylor and its progeny.

62a
The government also claims that even if the generic
definition of conspiracy was relevant, no overt act would
be required. Again, the government is wrong. There
should be no serious dispute that “[t]he generic definition
of an offense is the ‘contemporary understanding of the
term,’ ascertained from the criminal statutes, the Model
Penal Code, scholarly treatises, legal dictionaries, and,
when appropriate, the common law.” United States v.
Moore, 916 F.3d 231, 237 (2d Cir. 2019) (quoting United
States v. Castillo, 896 F.3d 141, 149-50 (2d Cir. 2018).
There should also be no serious dispute that these legal
sources overwhelmingly require an overt act. See United
States v. Garcia-Santana, 774 F.3d 538, 535 & n.4 (9th
Cir. 2014) (after comprehensive review, finding that forty
of fifty-four state and other jurisdictions require an overt
act); 2 Wayne R. LaFave & Austin W. Scott, Substantive
Criminal Law §12.2(b)(3d ed. 2018); Conspiracy, Black’s
Law Dictionary (11th ed. 2019). The Model Penal Code requires proof of an overt act for run-of-the-mill conspiratorial offenses. The fact that the Model Penal Code creates
a narrow exception to its general rule for certain classes
of felonies only proves that the prevailing understanding
of “conspiring” requires an overt act. Even federal law, to
which the government incorrectly assigns greater importance, favors the overt-act requirement. The general
federal conspiracy statute, § 371 applies to “any offense
against the United States,” including many “drug crimes
as well as non-drug federal crimes” and definitively requires proof of an overt act. Martinez-Cruz, 836 F.3d at
1313 & n.6. The government’s counting up of offense specific conspiracy statutes under federal law that do not
have an overt act element says little about the generic definition of conspiracy because many of these offenses are
narrow, obscure, and infrequently prosecuted, while § 371
covers a vast array of federal criminal conduct which

63a
together with the vast majority of the states and territories, authoritative treatises, and the Model Penal Code
fully support a conspiracy definition that includes the
commission of an overt act. The government cites no actual authority for the proposition that an antiquated common law meaning could take precedence over a modern,
consensus definition. Indeed, the government’s reference
to the burglary offense context of Taylor (Gov Sur 16)
demonstrates as much since the Court in Taylor departed
from the common law because the modern crime of burglary had “little in common with its common-law ancestor
except for the title.” Taylor, 495 U.S. at 593. Similarly,
§ 846 and the common law are out of step with the modern
understanding of conspiracy as evidenced by the overwhelming consensus of the legal authorities set forth
above.
This difference between the generic approach which
requires an overt act, and the approach of § 846 which
does not, is not a matter of mere semantics. There are
sound policy reasons for the Commission and the courts
to follow the generic definition, especially in the context of
enhanced penalties typically applicable to drug and violent crimes. If no overt act requirement is present, the
mere agreement to commit a possible, future violent act
or drug deal is sufficient, even if the conspirators never
take any action whatsoever toward actually committing
the agreed-upon act. In such a circumstance, the government could prosecute the offense even though no actual
criminal action was undertaken. The generic definition’s
overt-act requirement reasonably differentiates, for purposes of enhanced punishment, conspiracies that involve
actual criminal conduct from conspiracies which only involve agreements or mental understandings that did not
proceed to actual criminal conduct. Requiring an overt act
before imposing enhanced sentences under the career

64a
offender provision makes sense since it would require that
agreements to violate a law also be accompanied by specified criminal action in furtherance of the agreement before often draconian sentences are meted out.
Of course, if the Commission would like to supplant
this modern consensus requiring an overt act for conspiratorial offenses, the Commission can simply include the
§ 846 offense in the Guideline text for proper Congressional review and approval. However, without such an express reference in the text of the Guideline, the Commission has plainly intended that states are part of the equation by using the otherwise undefined generic term “conspiring” in a definition covering a wide swath of both federal and state offenses involving drugs or violence.
Finally, the government has no adequate explanation
to the fact that when the Commission intends to “single
out federal laws, it can—and does—do so explicitly.”
United States v. McCollum, 885 F.3d 300, 306 (4th Cir.
2018). Indeed, the commentary is replete with cross-references to particular federal crimes, and Application Note
1 itself contains no fewer than six specific cross-references to statutes that the Commission expressly states
qualify as controlled substance offenses. Section 846 is
conspicuously omitted from this list.
Even though the Commission has recently proposed
an amendment to the Guidelines that would reach § 846
conspiracies without the need to apply the categorical approach, this amendment is not effective at this time. Under the straightforward analysis set forth in Norman,
Martinez-Cruz, and other decisions, for the Guideline as
presently in effect, a conviction under § 846 is not conspiring to commit a Controlled Substance Offense under the
career offender provision. Consequently, Tabb is not a career offender even if Application Note 1 could somehow
expand the text of § 4B1.2.

65a
D. The Decisions From The Other Circuits Are Plainly
Correct And Applicable Here

In summary, it cannot be emphasized enough that just
on the Controlled Substances Offense point, the government's remarkable position is that there are now at least
four Circuits (and counting) squarely holding in favor of
Tabb’s position, which are not merely distinguishable or
inapposite, but flat out wrong on the merits: the D.C. Circuit (e.g., Winstead on the commentary issue); the Fourth
Circuit (e.g., Norman on the generic conspiracy issue);
the Sixth Circuit (Havis, en banc and unanimous, on the
commentary issue); and the Tenth Circuit (e.g., MartinezCruz, on the generic conspiracy issue). This list of Circuits
does not even include the numerous other precedents
from other Circuits cited in Tabb’s submissions which also
provide solid support for his argument that his Narcotics
Conspiracy Conviction should not qualify him for an enhanced sentenced as a career offender. Based on the authoritative opinions set forth in these and other decisions,
it can be reasonably predicted that more circuits will soon
be joining them, to constitute, collectively, a substantial
majority of the federal jurisdictions that are aligned with
Tabb’s position that his Narcotics Conspiracy Conviction
does not qualify as a career offender predicate conviction.
The Second Circuit should be among them.
*

*

*

66a
POINT THREE
APPLICATION OF RULE OF LENITY, IF NECESSARY,
IS COMPELLED HERE

If there is ever a sentencing situation that otherwise
calls for the application of the Rule of Lenity it surely is
this one with regard to both of Tabb’s prior convictions at
issue on this appeal but only in the event this Court does
not otherwise agree with either or both of Tabb’s arguments. As to the Narcotics Conspiracy Conviction, this
Court is faced with authoritative and recent Circuit decisions, including unanimous en banc decisions squarely favoring Tabb’s position, on the issues of the commentary
improperly conflicting with the Guideline text and the generic conspiracy definition. The Jackson decision should
not be a bar to a fair consideration of these legal authorities since these issues were either not addressed at all or
not squarely addressed to the extent of constituting binding precedent in this case. As to the prior Attempted Assault Conviction, we have the sharply divided opinion in
Villanueva with a compelling dissent by Judge Pooler
that itself evidences how close a call this issue is even in
this Circuit, the still binding precedents of Chrzanoski
and Johnson I, and numerous decisions from across other
Circuits as cited in Tabb’s main and reply briefs, which
would hold in Tabb’s favor if only he had been convicted
elsewhere.
There are literally years of Tabb’s freedom at stake
here as to whether he should be sentenced as a career offender or not, for an offense of conviction involving less
than four grams of crack cocaine and no violence, with the
competing ranges being 33-41 months for a non-career offender sentence, and 151-188 months for a career offender
sentence. Tabb’s 120-month sentence, though a relatively
modest downward variance under the circumstances, was

67a
expressly based on the District Court’s mistaken characterization of Tabb as a career offender under the Guidelines. It bears noting again that only Tabb’s offense level
calculation is impacted by the career offender enhancement. His criminal history category of VI would be fully
accounted for under either sentencing scenario.
Some overall perspective is called for here given the
submission of voluminous briefing on this appeal. The
seminal issue in this case is not whether Tabb should be
fully punished for his offense conduct and his prior criminal history, because based on his guilty plea, the plea
agreement, his moderate non-career offender sentencing
Guideline range, and his timely acceptance of responsibility, he surely can be fairly, fully, and proportionately punished as a matter of law and procedure. Rather, the issue
is whether he should face dramatically higher penalties as
a career offender even though much of the legal landscape
either strongly favors his position or at the very least, is
murky and divided as to its impact on his sentencing situation. Under the law of several, if not the majority of Circuits, Tabb would not be deemed a career offender, with
one or both of his prior convictions found to be not qualifying. No criminal defendant should receive the significantly enhanced penalty of being labeled a career offender under these circumstances in which Circuit location (or even specific panel composition within a Circuit)
plays such a decisive role, and with years of freedom deprivation literally on the line.
Nor should such an enhanced sentence be based, more
than it should be, on creative and at times unrelenting
government advocacy, or a similar but opposing approach
by a determined defense attorney, as important as such
efforts otherwise can and should be in criminal cases
where the rules and penalties should be more fairly and
unambiguously set forth. In a more ideal federal

68a
sentencing world, it should not be necessary for attorneys
on either side of the aisle to spend an extremely significant amount of time analyzing and parsing through literally hundreds of decisions from across the country, with
some coming down almost on a weekly basis to date, as
well as numerous other legal authorities, in order to somehow determine what should otherwise be a straightforward but very important question: the range of imprisonment applicable to a particular defendant for a particular
offense of conviction. This uncertain state of affairs is infecting the federal criminal process not only at the Circuit
level but perhaps even more significantly in the trenches
of criminal practice with regard to the all important decision as to whether a defendant should opt for a trial or
instead plead guilty, and if the latter, the terms of any plea
agreement, including an accurate description and characterization of a defendant’s criminal history and the need
for an appeal waiver exception, as Tabb fortunately insisted upon in this case. To say that important issues are
at times being missed or misconstrued by some otherwise
dedicated and competent practitioners on both sides with
regard to the terms of negotiated plea agreements for example is probably an understatement at this time. Realistically, most attorneys and federal prosecutors do not
have a virtually unlimited amount of time and resources
that can and should be devoted to an adequate exploration
of all of the relevant issues and circumstances of these
complex sentencing situations. Of course, it should not be
this way but the fact that it is, strongly militates in favor
of the application of the Rule of Lenity, if necessary, in
this case.
It bears emphasis that the Guidelines were expressly
intended to decrease sentencing disparity for similarly
situated defendants including on the career offender issue. In the context of this appeal and at this regrettable

69a
point in the history of federal sentencing and the Guidelines, Tabb’s specific sentencing situation would call for
such an unjust result if the government’s position were to
somehow prevail over the authoritative opinions from
other Circuits that directly contravene the government’s
position. Though Tabb respectfully and strongly believes
that the overall weight of the law clearly favors his position as to the invalidity of both of his prior convictions, to
the extent this Panel disagrees, the Rule of Lenity should
unquestionably apply here as an appropriate backstop so
that Tabb is correctly re-sentenced as a non-career offender. The government almost denigrates this important
precept as an “interpretative tool of last resort.” (Gov Br
at 35). However, even under the government’s narrow understanding of the rule, we are in such a place at least with
regard to Tabb’s specific sentencing situation but only if
this Court disagrees with both of Tabb’s arguments. Indeed, the application of the Rule of Lenity should not be a
close call at all in this circumstance, especially considering
that it is the government that has the burden of proof to
demonstrate that the enhanced penalties of the career offender provision should apply to a particular defendant’s
sentencing situation. Under the specific circumstances of
Tabb’s sentencing situation, and until such time as the Supreme Court, the Sentencing Commission, and Congress
actually clean up what can only be accurately described as
a sentencing morass as it relates to the applicability of the
career offender provision involving both the Controlled
Substances Offense and Crime of Violence issues, under
no reasonable and just circumstance should Tabb be subject to the significantly enhanced career offender penalties.

70a
CONCLUSION

Accordingly, Zimmian Tabb’s career offender sentence should be reversed and he should be re-sentenced
as a non-career offender since he does not have any qualifying predicate convictions for either a Controlled Substance Offense or for a Crime of Violence much less the
two that are required for the application of the significantly enhanced penalties that apply to being classified as
a career offender. Thank you for your consideration of
this important appeal and for the opportunity of submitting this additional submission.
Respectfully submitted,
/s/ Richard E. Signorelli
Richard E. Signorelli

